September 29, 2000

KENNETH C. WEAVER
CHIEF POSTAL INSPECTOR

SUBJECT:      Audit of the Inspection Service Reporting of Cost-Avoidance Savings
              Under the Fraudulent Workers’ Compensation Program
              (Report Number OV-AR-00-002)

This report presents the results of our audit of the Inspection Service’s reporting of cost-
avoidance savings under the Fraudulent Workers’ Compensation Program (Project
Number 99CR002OV000). Our objective was to assess the effectiveness and accuracy
of information reported to agencies external to the Inspection Service.

We concluded that cost avoidance savings were generally accurate and supportable.
We identified discrepancies, but the errors did not have a material affect on savings
figures reported under the Inspection Service Fraudulent Workers’ Compensation
Program. Management provided comments on the report and agreed with our
recommendation to require the use of birth month and year to calculate cost-avoidance
savings for long-term periodic roll cases. Management’s comments were responsive to
the recommendation. Management's comments and our evaluation of these comments
are included in the report.

We appreciate the cooperation and courtesies provided by your staff during the audit.
If you have any questions, please contact Cathleen Berrick, director, Oversight, or me
at (703) 248-2300.



Debra D. Pettitt
Acting Assistant Inspector General
 for Oversight and Business Evaluations

Attachment

cc: 	James K. Belz
    John R. Gunnels
Inspection Service Reporting of Cost-Avoidance Savings                  OV-AR-00-002
 Under the Fraudulent Workers’ Compensation Program


                                  TABLE OF CONTENTS 

Executive Summary                                                               i



Part I 


Introduction                                                                   1


   Background                                                                  1
   Objective, Scope, and Methodology                                           4


Part II

Audit Results 	                                                                6


   Cost-Avoidance Savings Calculations                                         6

   Recommendation                                                              7
   Management’s Comments                                                       7

   Evaluation of Management’s Comments                                         8


Appendix A.	 Periodic Roll Cost-Avoidance Savings Methodologies Used           9

             by Federal Agencies Reviewed 


Appendix B.	 Ten Federal Agencies With Highest Workers’                       10 

             Compensation Costs 


Appendix C.	 Comparison of Sample Cost-Avoidance Savings                      11 

             Calculations Under Inspection Service and Other Federal

             Agency Methodologies Reviewed 


Appendix D.	 Statistical Sampling and Projections for Review of               12 

             Inspection Service Cost Savings from the Workers’

             Compensation Fraud Program 


Appendix E. Management’s Comments 	                                           14 

Inspection Service Reporting of Cost-Avoidance Savings                            OV-AR-00-002
 Under the Fraudulent Workers’ Compensation Program


                                  EXECUTIVE SUMMARY
Introduction 	                This report presents the results of our review of the Postal
                              Inspection Service’s reporting of cost-avoidance savings
                              under the Fraudulent Workers’ Compensation Program
                              (Project Number 99CR002OV000). Specifically, we
                              evaluated the accuracy and supportability of cost-avoidance
                              savings calculations; the adequacy of the Inspection
                              Service methodology used to calculate cost-avoidance
                              savings; and the purposes for which cost-avoidance savings
                              figures are used.

Results in Brief	             Our review disclosed that cost avoidance savings were
                              generally accurate and supportable. We identified
                              discrepancies, but the errors did not have a material affect
                              on savings figures reported under the Inspection Service
                              Fraudulent Workers’ Compensation Program. In addition,
                              cost-avoidance savings figures were adequately
                              documented and the methodology used to generate cost-
                              avoidance savings for long-term periodic roll cases was
                              reasonable. Finally, Inspection Service management
                              primarily used cost-avoidance savings figures for internal
                              purposes, such as evaluating individual and program
                              performance.

                              Although discrepancies in the calculation of cost-avoidance
                              savings had an immaterial impact on claimed savings,
                              discrepancies due to a variation in the application of the
                              Inspection Service methodology occurred frequently
                              throughout the projected audit universe. These
                              discrepancies relate to the calculation of birth dates and
                              benefit termination dates for long-term periodic roll cases.
                              Specifically, when applying the methodology for long-term
                              periodic roll cases, some inspectors applied both the month
                              and year to the calculation when evaluating birth dates and
                              benefit termination dates, while other inspectors applied
                              only the year. Consistent application of the Inspection
                              Service methodology would help ensure more accurate
                              calculations of cost-avoidance savings to assist in the
                              evaluation of individual and program performance.




                                                   i
Inspection Service Reporting of Cost-Avoidance Savings                            OV-AR-00-002
 Under the Fraudulent Workers’ Compensation Program


Summary of 	                  We recommend the chief postal inspector modify the
Recommendation 	              Inspection Service Manual to require the use of birth month
                              and year to calculate cost-avoidance savings for long-term
                              periodic roll cases.

Management’s                  The deputy chief inspector, Criminal Investigations,
Comments                      provided comments to the report. The deputy chief
                              inspector identified that the Inspection Service is in general
                              agreement with the results presented in the report. The
                              deputy chief inspector further identified that beginning in
                              fiscal year 2001, the Inspection Service will issue
                              instructions to standardize the computation of cost-
                              avoidance savings in accordance with the recommendation.
                              Management’s comments, in their entirety, are included in
                              Appendix E of this report.

Overall Evaluation of         Management’s comments are responsive to the 

Management’s                  recommendation. 

Comments 





                                                   ii
Inspection Service Reporting of Cost-Avoidance Savings                                                OV-AR-00-002
 Under the Fraudulent Workers’ Compensation Program


                                              INTRODUCTION
Background 	                        The Federal Employees’ Compensation Act provides
                                    compensation benefits to civilian employees of the United
                                    States for disability due to personal injury or disease
                                    sustained while in the performance of duty. The Federal
                                    Employees’ Compensation Act also provides for the
                                    payment of benefits to dependents if a work-related injury or
                                    disease causes an employee’s death. Benefits provided
                                    under the Federal Employees’ Compensation Act constitute
                                    the sole remedy against the United States for work-related
                                    injury or death.

                                    All Federal Employees’ Compensation Act claims are
                                    adjudicated, approved, and paid by the Department of
                                    Labor, Office of Workers’ Compensation Programs. The
                                    Department of Labor is reimbursed for all claims by the
                                    affected federal agency. Title 5 of the United States Code
                                    grants the Department of Labor, Office of Workers’
                                    Compensation Programs, exclusive authority for
                                    administrating, implementing, and enforcing the Federal
                                    Employees’ Compensation Act. Title 39 of the United
                                    States Code provides coverage of postal personnel under
                                    the Federal Employees’ Compensation Act.

                                    The Postal Service is one of the nation’s largest civilian
                                    employers with approximately 792,000 career employees.
                                    The Postal Service is also the largest payer of Federal
                                    Employees’ Compensation Act claims within the federal
                                    government. A postal employee who experiences a
                                    physical or mental injury while on duty is eligible to receive
                                    payments for medical treatment and lost wages under the
                                    Federal Employees’ Compensation Act. The injury may be
                                    due to a one-time, traumatic incident or an occupational
                                    condition that develops over time.

                                    The graph below identifies that from July 1, 1998, through
                                    June 30, 1999, the Postal Service paid 31 percent (over
                                    $594 million) of the total workers’ compensation costs
                                    charged to the federal government. During this same
                                    timeframe, the entire federal government combined paid
                                    over $1.9 billion in workers’ compensation benefits.1

1
    See Appendix B for a listing of the ten federal agencies with the highest workers’ compensation costs.




                                                            1
Inspection Service Reporting of Cost-Avoidance Savings                                          OV-AR-00-002
 Under the Fraudulent Workers’ Compensation Program


                                            Graph 1. Federal Government Agencies Workers'
                                               Compensation Percentage of Total Costs
                                                              (07/01/98 - 06/30/99)

                                         15%                                     USPS
                                                                                 Dept of Navy
                                   3%
                                                                    31%          Dept of Army
                                 3%                                              Dept of Veterans' Affairs
                                                                                 Dept of Air Force
                                4%

                                                                                 Dept of Transportation

                                4%
                                              Dept of Justice

                                  5%                                             Dept of Treasury
                                                                                 Dept of Defense
                                       6%                         13%            Dept of Agriculture
                                            7%           9%                      Other Federal Agencies



Fraudulent Workers’           The Inspection Service established the Fraudulent Workers’
Compensation                  Compensation program to support and complement the
Program                       Postal Service in the management of the Injury
                              Compensation Program under the Federal Employees’
                              Compensation Act. The objectives of the Fraudulent
                              Workers’ Compensation Program are to:

                              •	 Review internal controls and identify problems and
                                 solutions to prevent the loss of postal resources and
                                 reduce compensation costs.

                              •	 Investigate and initiate administrative, civil, or criminal
                                 actions against individuals responsible for fraud, waste,
                                 misuse or abuse under the Federal employees’
                                 Compensation Act.
                              .
Cost-Avoidance                Inspection Service personnel calculate cost-avoidance
Savings Methodology           savings under the Fraudulent Workers’ Compensation
                              Program using a standard, internally-generated
                              methodology. Inspection Service personnel calculate cost-
                              avoidance savings for long-term periodic roll and
                              continuance of pay cases. Long-term periodic roll cases
                              are cases in which Department of Labor personnel decide
                              that the employee’s incapacitation will be long-term and the
                              employee is placed on the periodic, automatic rolls.
                              Continuance of pay cases are cases in which employees
                              incur an on-the-job injury that causes them to be unable to
                              work. These individuals are eligible to receive



                                                   2
Inspection Service Reporting of Cost-Avoidance Savings                             OV-AR-00-002
 Under the Fraudulent Workers’ Compensation Program


                              compensation at their stated rate of pay for up to
                              45 calendar days.

                              The Inspection Service Manual, Section 930, “Fraudulent
                              Workers’ Compensation (FWC),” dated July 30, 1999,
                              identifies that the following cost-avoidance savings
                              methodologies will be used when calculating cost-
                              avoidance savings for long-term periodic roll and
                              continuance of pay cases under the Fraudulent Workers’
                              Compensation Program.

                              •	 Long-Term Periodic Roll Cases. Calculated on the
                                 basis of a normal life expectancy age of 70. Expected
                                 remaining years of claimant’s life are multiplied by the
                                 annual compensation rate or reduction in annual
                                 compensation rate. For example, the cost-avoidance
                                 savings for a case involving a letter carrier, age 37,
                                 receiving $2,000 each payment period of 28 days would
                                 be calculated as follows: $2,000 X 13 = $26,000 X 33
                                 years (70-37) = $858,000.

                              •	 Continuance of Pay Cases. Calculated on the basis of
                                 an employee’s daily wage rate multiplied by 30,
                                 regardless of the actual number of continuance of pay
                                 days avoided. For example, the cost-avoidance savings
                                 for a case involving a mailhandler resulting in the
                                 savings of 12 days of continuance of pay would be
                                 calculated based on the mailhandler’s daily wage rate
                                 multiplied by 30 days of continuance of pay as follows:
                                 $100 (daily wage rate) X 30 days = $3,000.

                              Beginning in fiscal year (FY) 2000, Inspection Service
                              management revised the Inspection Service methodology
                              for calculating cost-avoidance savings for continuance of
                              pay cases. Specifically, the Postal Service National
                              Accounting Office, at the request of the Inspection Service,
                              identified that the average cost per continuance of pay case
                              to the Postal Service was $41,812. Accordingly, Inspection
                              Service management modified the methodology used to
                              calculate cost-avoidance savings for continuance of pay
                              cases to use a standard $41,812 per case.




                                                   3
Inspection Service Reporting of Cost-Avoidance Savings                                              OV-AR-00-002
 Under the Fraudulent Workers’ Compensation Program


Objective, Scope &               The overall objective of the audit was to assess the
Methodology                      effectiveness and accuracy of information reported to
                                 agencies external to the Inspection Service. Specifically,
                                 we evaluated the accuracy and supportability of cost-
                                 avoidance savings calculations under the Inspection
                                 Service’s Fraudulent Workers’ Compensation Program; the
                                 adequacy of the Inspection Service methodology used to
                                 calculate cost-avoidance savings; and the purposes for
                                 which cost-avoidance savings figures are used. Since
                                 Inspection Service cost-avoidance savings for continuance
                                 of pay cases amounted to less than one percent of all
                                 workers’ compensation cost-avoidance savings during
                                 FY 1999, we focused on the methodology used to calculate
                                 cost-avoidance savings for long-term periodic roll cases
                                 during our review.

                                 To accomplish our objective, we interviewed personnel from
                                 the Inspection Service, Postal Service National Accounting
                                 Office, and Postal Service Safety and Workplace
                                 Assistance Office. We also interviewed injury
                                 compensation personnel from the 13 Postal Service area
                                 offices. We further interviewed representatives from the
                                 following federal agencies2 to identify the methodologies
                                 used to calculate workers compensation cost-avoidance
                                 savings and to determine the purposes for which cost-
                                 avoidance savings figures are used.3

                                 •    Bureau of Alcohol, Tobacco and Firearms
                                 •    Defense Criminal Investigative Service
                                 •    Department of Agriculture
                                 •    Department of Defense
                                 •    Department of Labor
                                 •    Department of Justice
                                 •    Department of Transportation
                                 •    Department of Treasury
                                 •    Department of Veterans’ Affairs
                                 •    Federal Aviation Administration
                                 •    Internal Revenue Service

2
  We judgmentally selected the 16 federal agencies for review. The information obtained from federal agency
representatives was self-reported and was not independently verified.
3
  We identified that the Department of Justice, Department of Transportation, and Department of Treasury did not
calculate workers’ compensation cost-avoidance savings. See Appendix A for the methodologies used by the
federal agencies reviewed for calculating cost-avoidance savings for long-term periodic roll cases.




                                                         4
Inspection Service Reporting of Cost-Avoidance Savings                          OV-AR-00-002
 Under the Fraudulent Workers’ Compensation Program


                              •   Maritime Administration
                              •   Naval Criminal Investigative Service
                              •   Tennessee Valley Authority
                              •   U.S. Coast Guard
                              •   U.S. Mint

                              We selected and reviewed a statistical sample of 50 long-
                              term periodic roll workers’ compensation cases from
                              FY 1999 to determine the accuracy and supportability of
                              claimed cost-avoidance savings figures.

                              We conducted this review from March through
                              September 2000 in accordance with generally accepted
                              government auditing standards and included such test of
                              control as were considered necessary. We discussed our
                              conclusions and observations with appropriate
                              management officials and included their comments, where
                              appropriate.




                                                   5
Inspection Service Reporting of Cost-Avoidance Savings                            OV-AR-00-002
 Under the Fraudulent Workers’ Compensation Program


                                       AUDIT RESULTS
Cost-Avoidance                Our review disclosed that cost avoidance savings were
Savings Calculations          generally accurate and supportable. We identified
                              discrepancies, but the errors did not have a material affect
                              on savings figures reported under the Inspection Service
                              Fraudulent Workers’ Compensation Program. In addition,
                              cost-avoidance savings figures were adequately
                              documented and the methodology used to generate cost-
                              avoidance savings for long-term periodic roll cases was
                              reasonable. Finally, Inspection Service management
                              primarily used cost-avoidance savings figures for internal
                              purposes, such as evaluating individual and program
                              performance.

                              Based upon a review of the Inspection Service methodology
                              and a comparison of methodologies used by other federal
                              agencies, we concluded that the Inspection Service
                              methodology used to generate cost-avoidance savings for
                              long-term periodic roll cases was reasonable. Specifically,
                              we believe that the cost-avoidance savings calculated using
                              the Inspection Service methodology is a reasonable
                              estimation of savings that could be achieved had the
                              individual remained on the long-term periodic rolls for the
                              life expectancy age calculated. In addition, the Inspection
                              Service methodology resulted in cost-avoidance savings
                              that were similar to the savings calculated under
                              methodologies used by the federal agencies surveyed. See
                              Appendix C for a comparison of sample cost-avoidance
                              savings calculations under the Inspection Service
                              methodology and other federal agency methodologies
                              reviewed.

                              Inspection Service management, like management from the
                              other federal agencies surveyed who calculated cost-
                              avoidance savings, used cost-avoidance savings figures for
                              internal purposes, such as evaluating individual and
                              program performance. We determined that cost-avoidance
                              savings figures were not reported to the Postal Service and,
                              therefore, had no impact on the Postal Service’s financial or
                              budgetary statements.

Calculation                   Although discrepancies in the calculation of cost-avoidance
Discrepancies                 savings had an immaterial impact on claimed savings,
                              discrepancies due to a variation in the application of the



                                                   6
Inspection Service Reporting of Cost-Avoidance Savings                            OV-AR-00-002
 Under the Fraudulent Workers’ Compensation Program


                              Inspection Service methodology occurred frequently
                              throughout the projected audit universe. Specifically, we
                              are 95 percent confident that 94 to 123 cases in the audit
                              universe contain a variation in the application of the
                              Inspection Service methodology. See Appendix D for a
                              detailed explanation of the sample results.

                              Discrepancies due to a variation in the application of the
                              Inspection Service methodology relate to the calculation of
                              birth dates and benefit termination dates for long-term
                              periodic roll cases. Specifically, when applying the
                              methodology for long-term periodic roll cases, some
                              inspectors applied both the month and year to the
                              calculation when evaluating birth dates and benefit
                              termination dates, while other inspectors applied only the
                              year. For example, an individual born on August 19, 1968,
                              who had his/her compensation benefits terminated on
                              June 20, 1999, should be considered as being 30 years,
                              10 months old. However, when the inspector calculated the
                              cost-avoidance savings, the individual was considered to be
                              only 30 years old, thereby overstating the cost-avoidance
                              savings by over $19,000. The consistent application of the
                              Inspection Service methodology would help ensure more
                              accurate calculations of cost-avoidance savings to assist in
                              the evaluation of individual and program performance.

Recommendation 	              We recommend the chief postal inspector modify the
                              Inspection Service Manual to require the use of birth month
                              and year to calculate cost-avoidance savings for long-term
                              periodic roll cases.

Management’s                  The deputy chief inspector, Criminal Investigations,
Comments                      provided comments to the report and stated that the
                              Inspection Service was in general agreement with the
                              results presented in the report. The deputy chief inspector
                              further stated that the Inspection Service agrees that
                              consistency and accuracy in the calculation of long-term
                              savings was preferred, and that the variation in calculations
                              by inspectors relative to claimant’s birth dates is not
                              material to total savings claimed. However, beginning in
                              FY 2001, the Inspection Service will issue instructions to
                              standardize the computation of cost-avoidance savings.
                              Management’s comments, in their entirety, are included in
                              Appendix E of this report.




                                                   7
Inspection Service Reporting of Cost-Avoidance Savings                        OV-AR-00-002
 Under the Fraudulent Workers’ Compensation Program




Evaluation of                 Management’s comments are responsive to the 

Management’s                  recommendation. 

Comments 





                                                   8
Inspection Service Reporting of Cost-Avoidance Savings                        OV-AR-00-002
 Under the Fraudulent Workers’ Compensation Program


                                          APPENDIX A

   PERIODIC ROLL COST-AVOIDANCE SAVINGS METHODOLOGIES
            USED BY FEDERAL AGENCIES REVIEWED

1. Life Expectancy Method Using 70 as the Age Cut-Off.	 Subtract the age of the
   individual when they are removed from workers’ compensation from 70 (for
   example, if the individual were 30, the calculation would be 70 – 30 = 40). Multiply
   the amount of compensation the individual receives every 28 days by 13 to obtain
   the annual compensation while on workers’ compensation. Multiply the age
   difference (i.e. 40) by the annual compensation while on workers’ compensation to
   obtain the cost-avoidance savings. This methodology is used by the Inspection
   Service and the Department of Veterans’ Affairs.

2. Life Expectancy Method Using 70 as the Age Cut-Off Plus an Inflation Factor.
   Same methodology as the Life Expectancy Method Using 70 as the Age Cut-Off
   with the addition of an inflation factor, which may fluctuate from year-to-year. This
   methodology is used by the Department of Defense and the Naval Criminal
   Investigative Service.

3. Life Expectancy Method Using 70 as the Age Cut-Off Plus Adjustments. Same
   methodology as the Life Expectancy Method Using 70 as the Age Cut-Off.
   However, if a claimant is over the age of 60, the life expectancy age is gradually
   modified upwards. This methodology is used by the Internal Revenue Service.

4. Life Expectancy Chart.	 A chart, developed by insurance companies in 1994, that
   uses discriminators such as sex and race to determine the estimated life expectancy
   of an individual. Multiply the amount of compensation the individual receives every
   28 days by 13 to obtain the annual compensation while on workers’ compensation.
   Multiply the estimated life expectancy, based upon the chart, by the annual
   compensation while on workers’ compensation to obtain the cost-avoidance
   savings. This methodology is used by the Tennessee Valley Authority.

5. One Year’s Salary while on Workers’ Compensation.	 Multiply the amount of
   compensation the individual receives every 28 days by 13 to obtain the annual
   compensation while on workers’ compensation, which becomes the cost-avoidance
   savings. This methodology is used by the Department of Agriculture.

6. Department of Labor Methodology.	 This calculation is based upon information
   entered into a mathematical model using ten years of historical data using such
   discriminators as type of injury, age, and gender.




                                                   9
Inspection Service Reporting of Cost-Avoidance Savings                                             OV-AR-00-002
 Under the Fraudulent Workers’ Compensation Program


                                                APPENDIX B

               TEN FEDERAL AGENCIES WITH HIGHEST WORKERS’
                          COMPENSATION COSTS
                               (July 1, 1998, through June 30, 1999 (in dollars))

      Federal Government Agency                               Total Workers’ Compensation Cost
1. U.S. Postal Service                                                  $594,503,325
                            3
2. Department of the Navy                                                240,491,952
                            5
3. Department of the Army                                                163,126,939
4. Department of Veterans’ Affairs                                       137,864,786
                               5
5. Department of the Air Force                                           123,349,006
6. Department of Transportation                                           97,154,531
7. Department of Justice                                                  76,319,055
8. Department of Treasury                                                 75,124,734
9. Office of the Secretary of Defense and                                 63,563,204
    Other Defense Agencies5
10. Department of Agriculture                                                    59,850,844




3
    Total amount of workers’ compensation costs paid by the entire Department of Defense was $590,531,101.00.




                                                         10
  Inspection Service Reporting of Cost-Avoidance Savings                                         OV-AR-00-002
   Under the Fraudulent Workers’ Compensation Program


                                                APPENDIX C

     COMPARISON OF SAMPLE COST-AVOIDANCE SAVINGS
CALCULATIONS UNDER INSPECTION SERVICE AND OTHER FEDERAL
           AGENCY METHODOLOGIES REVIEWED

                                                              Life
                                                          Expectancy
                                        Life                  with
                                    Expectancy           Adjustments                 Life
                 Life              Plus Inflation         for Over 60             Expectancy      1 Year of
Savings       Expectancy4             Factor5            years of Age6              Chart7      Compensation8

Case 1          $278,607.42          $566,326.48           $278,607.42            $381,654.00         $9,087.00
Case 2          $673,322.00        $1,477,008.73           $673,322.00            $814,951.80        $23,218.00
Case 3          $548,071.94        $1,331,150.80           $548,071.94            $715,526.50        $21,359.00
Case 4          $696,277.66        $1,765,415.46           $696,277.66            $756,330.90        $28,327.00

Case 1 Information                                             Case 2 Information
Gender: Female                                                 Gender: Male
Race: White                                                    Race: White
Age: 39 years, 4 months                                        Age: 41 years
28-Day Compensation: $699.00                                   28-Day Compensation: $1,786.00
70 - Current Age = 30 years, 8 months                          70 - Current Age = 29
Assuming 5% inflation rate                                     Assuming 5% inflation rate


Case 3 Information                                             Case 4 Information
Gender: Female                                                 Gender: Male
Race: African American                                         Race: African American
Age: 44 years, 4 months                                        Age: 45 years, 5 months
28-Day Compensation: $1,643.00                                 28-Day Compensation: $2,179.00
70 - Current Age = 25 years, 8 months                          70 - Current Age = 24 years, 7 months
Assuming 5% inflation rate                                     Assuming 5% inflation rate




  4
    Used by the Inspection Service and Department of Veterans’ Affairs.
  5
    Used by the Department of Defense and Naval Criminal Investigative Service.
  6
    Used by the Internal Revenue Service.
  7
    Used by the Tennessee Valley Authority.
  8
    Used by the Department of Agriculture




                                                         11
Inspection Service Reporting of Cost-Avoidance Savings                       OV-AR-00-002
 Under the Fraudulent Workers’ Compensation Program


                                          APPENDIX D

       STATISTICAL SAMPLING AND PROJECTIONS FOR REVIEW
         OF INSPECTION SERVICE COST SAVINGS FROM THE
           WORKERS’ COMPENSATION FRAUD PROGRAM


Purpose of the Sampling. The overall objective of this audit was to assess the
effectiveness and accuracy of the methodology used by the Inspection Service to
calculate the cost-avoidance savings attributable to their workers’ compensation fraud
program. In support of this objective, the audit team employed a simple random
attribute sample design that allows statistical projection of the number of savings
computation errors and variations in the application of the cost-avoidance savings
methodology for the individual workers’ compensation cases on the long-term periodic
rolls.

Definition of the Audit Universe. The audit universe consisted of 236 workers’
compensation cases on the long-term periodic roll for FY 1999. The Inspection Service
management was the source of the universe data.

Sample Design and Modifications. The audit used a simple random sample design.
Seventy cases were randomly selected for review, to provide a two-sided 95 percent
confidence interval with a 6 percent precision, based on auditor expectations of
approximately a 10 percent error rate. In the course of the review, the team examined
the first 50 randomly-selected cases. The attributes examined were the existence of
computational errors and the variation in the application of the cost-avoidance savings
methodology.

Statistical Projections of the Sample Data. The sample results were analyzed using
the formulas for estimation of a population proportion for a simple random attribute
sample, as described in Elementary Survey Sampling, Scheaffer, Mendenhall, and Ott,
c.1990.

Presence of Cost Savings Calculation Error. Based on a projection of the sample
results, we are 95 percent confident that in the audit universe, 20 to 65 cases
(8.5 percent to 27.5 percent) contain computational errors. The unbiased point
estimate is 43 cases, or 22.5 percent of the 236 cases for FY 1999.

We note that calculation errors may understate or overstate the savings. In the sample,
we observed nine calculation errors ranging from -$106,888.00 to +$20,179.35. When
we attempted to compute the projected dollar impact of these errors, we determine a
point estimate of the average error to be slightly negative. However, when placing a
95 percent confidence bound on the estimated mean dollar effect, we determine that it
passed through zero. Therefore, because of the small sample size and high variability



                                                  12
Inspection Service Reporting of Cost-Avoidance Savings                        OV-AR-00-002
 Under the Fraudulent Workers’ Compensation Program


in the error amounts, we are unable to show a statistically significant overstatement or
understatement effect.

Presence of Variation in Application of Cost-Avoidance Savings Methodology.
Based on a projection of the sample results, we are 95 percent confident that in the
audit universe, 94 to 123 cases (39.8 percent to 52.2 percent) contain a variation in the
application of the cost-avoidance savings methodology. The unbiased point estimate is
109 cases, or 46 percent of the 236 cases for FY 1999.

We note that a variation in the application of the cost-avoidance savings methodology
may understate or overstate the savings. In the sample, we observed 23 cases that
applied a variation in the application of the cost-avoidance savings methodology with
the difference ranging from -$20,471.20 to +20,268.00. When we attempted to
compute the projected dollar impact of these errors, we identified a point estimate of
the average error to be slightly negative. However, when placing a 95 percent
confidence bound on the estimated mean dollar effect, we found that it passed through
zero. Therefore, because of the small sample size and high variability in the amounts,
we are unable to show a statistically significant overstatement or understatement effect.




                                                  13
Inspection Service Reporting of Cost-Avoidance Savings   OV-AR-00-002
 Under the Fraudulent Workers’ Compensation Program


                  APPENDIX E. MANAGEMENT’S COMMENTS




                                                  14
Inspection Service Reporting of Cost-Avoidance Savings   OV-AR-00-002
 Under the Fraudulent Workers’ Compensation Program




                                                  15
